February 20, 2009

GEORGE W. WRIGHT
VICE PRESIDENT, INFORMATION TECHNOLOGY OPERATIONS

SUBJECT: Audit Report – Access Controls in the Enterprise Data Warehouse
         (Report Number IS-AR-09-004)

This report presents the results of our audit of access controls in the Enterprise Data
Warehouse (EDW) (Project Number 08RG027IS000). The report is the result of a self-
initiated audit, which addresses operational risk. See Appendix A for additional
information about this audit.

Conclusion

Overall, we believe the U.S. Postal Service has been diligent in its efforts to secure
sensitive information stored in EDW from inappropriate access. However, management
needs to strengthen access controls governing contractors who are nonstandard users
of the system, update the Business Impact Assessment (BIA), recertify EDW, and
simplify how EDW managers assign and maintain access rights.

Contractor Access to Enterprise Data Warehouse

Access controls are not adequate for EDW nonstandard users1 who are contractors.
Our analysis showed that for 90 out of 107 contractors (84 percent), their justifications
for continued access to EDW listed on Postal Service (PS) Forms 1357, Request for
Computer Access, referenced contracts that had expired. Further, we found that 72 of
the 90 contractors (80 percent) with expired contracts listed had logged into EDW after
their contract expiration date. We contacted several of these contractors and
determined they were working on other Postal Service contracts. However, their
supporting documentation did not reflect that information, and we could not determine
whether their work on these contracts justified their continuing access to EDW.

This occurred because the Postal Service does not track contractors’ access to the
EDW application or their contract expiration date. In addition, the Postal Service



1
  Nonstandard users of EDW have access to the actual data in the system, unlike standard users, who can view only
the reports generated from EDW but cannot access the actual data.
Access Controls in the Enterprise Data Warehouse                                                       IS-AR-09-004



elected not to use eAccess2 as a tracking mechanism. EDW managers said they had
not used eAccess for nonstandard users in the past because eAccess did not provide
the additional levels of approval they thought were necessary. Requests for
nonstandard access to EDW through eAccess should require additional levels of
approval, much like the current process for approving PS Forms 1357. Managers
indicated that if eAccess provided the option of selecting nonstandard access, rather
than standard access only, they would prefer to use eAccess. Postal Service policy3
requires managers to revoke access to information when an employee no longer
requires it. Managers’ not revoking a contractor’s access when a contract expires could
result in unauthorized individuals having access to sensitive EDW information.

We recommend the Vice President, Information Technology Operations, direct the
Manager, Business Data Management, to:

1. Set expiration dates for contractors’ access on or before the expiration date of the
   contracts they use to justify their access to the Enterprise Data Warehouse.

2. Use eAccess to request and approve access for nonstandard users of the Enterprise
   Data Warehouse, and update eAccess to enable the requestor to select standard or
   nonstandard access.

Enterprise Data Warehouse Recertification

Information in the EDW BIA is not currently up to date. EDW has grown significantly
since its Information Security Assurance (ISA) certification in June 2004. EDW is
designed to store data from multiple Postal Service applications. As such, it is critical
that management complete the ISA and BIA process for each business area component
that feeds into EDW and provide the information to EDW managers. EDW managers
should also consider the business application ISA information in the updated BIA for
EDW. Postal Service policy4 states that management must reinitiate the ISA a minimum
of every 5 years following its initial application, or when a significant change occurs in
the operating environment, business requirements, or application. In addition, the
Enterprise Information Repository lists EDW as needing recertification every 3 years,
which means recertification was due June 24, 2007.

Management was not aware of the requirement to update the BIA for EDW. Therefore,
EDW has not been recertified. In addition, EDW managers stated that the business
2
  The eAccess system has become an integral part of the day-to-day operations of the Postal Service. The system
not only monitors who obtains access to various Postal Service resources, but also automates the creation and
maintenance of user accounts. Its functionality provides efficiencies that allow for the elimination of PS Form 1357,
and the associated manual effort necessary to approve and create user accounts.
3
  Handbook AS-805, Information Security, dated March 2002 (updated with Postal Bulletin revisions through
November 23, 2006), Chapter 9, Information Security, Section 4.2.7: Revoking Access.
4
  Handbook AS-805-A, Application Information Security Assurance (ISA) Process, dated July 2003 (updated with
Postal Bulletin revisions through September 29, 2005), Chapter 6, Re-Initiating the ISA, Section 6-2, When Re-ISA is
Required.



                                                          2
Access Controls in the Enterprise Data Warehouse                                                    IS-AR-09-004



areas that have applications located within EDW have not provided a current BIA for
their applications. Our audit identified 45 sensitive applications that feed into EDW. As
of January 2, 2009, nine5 of these systems had not completed a BIA. Consequently,
EDW managers have reason to question the reliability of the information available to
them about which data elements are sensitive. As a result, unauthorized users may
have access to sensitive data, which could also create a risk to the integrity of the
Postal Service brand.

We recommend the Vice President, Information Technology Operations, direct the
Manager, Business Data Management, to:

3. Update the Business Impact Assessment for the Enterprise Data Warehouse and
   recertify the system as required by Postal Service Handbook AS-805-A, Application
   Information Security Assurance (ISA) Process.

We recommend the Vice President, Information Technology Operations, direct the
Manager, Corporate Information Technology Portfolios, to:

4. Ensure all business areas that feed data into the Enterprise Data Warehouse
   provide a current Business Impact Assessment for their applications to the
   Enterprise Data Warehouse Program Manager, Information Technology; the
   Business Impact Assessment should verify which data elements are sensitive and
   need additional security measures.

EDW Access Rights

The current process for assigning and managing access rights within EDW is very
complicated and too time-consuming to manage effectively. This occurred because
management assigns rights to individuals, roles, and nested roles as a matter of
practice. Our request for information on the detailed rights for 130 users returned over
300,000 lines of data. Management would need to analyze each line of data to
determine the detailed rights for these individuals, and whether the rights granted are
appropriate.

Best practices6 encourage access to computer applications and systems to be role
based, which means that management grants permissions to roles. Management
makes users members of roles, so the users acquire the permissions granted to the
roles. Because managers do not assign user permissions exclusively to roles, they
have little knowledge about users’ rights in EDW. Managers could also misinterpret

5
  Customer Advocate Management System, Vehicle Management and Accounting System, Supply Chain
Management, Accounting Data Mart, Complement Management and Selection, Safety and Health, Electronic
Marketing Reporting System, Unique Customer Identification, and Employee Receivables.
6
  Planning Report 02-1, The Economic Impact of Role-Based Access Control, prepared by the Rochester Institute of
Technology for National Institute of Standards and Technology, Program Office Strategic Planning and Economic
Analysis Group, dated March 2002, Chapter 2, The Evolution of Role-Based Access Controls, Section 2.1.1, Users,
Roles, and Permissions.


                                                        3
Access Controls in the Enterprise Data Warehouse                              IS-AR-09-004



access rights for an individual and provide access to sensitive information to users who
do not need the information.

We recommend the Vice President, Information Technology Operations, direct the
Manager, Business Data Management, to:

5. Assign access rights to roles instead of to individual and nested roles.

Management’s Comments

Management agreed with all of the recommendations and stated that Business Data
Management will reevaluate the process for all contractors requesting access for EDW
to ensure they do not have access rights after the contract period has expired. The
scheduled completion date is July 30, 2009. Further, management will update and use
eAccess as the mechanism for approving access for non-standard users by April 17,
2009. Business Data Management will also update the BIA and recertify the EDW as
required by August 28, 2009. In addition, Corporate Information Technology will ensure
that current BIAs are in place for business areas that feed data into the EDW, and will
also verify which data elements are sensitive and require additional security measures
by May 31, 2009. Finally, management agreed they need to assign access rights to
roles instead of individuals. Management will reevaluate access rights and analyze
nested roles to determine if they can improve the current process by July 30, 2009. See
Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers recommendations 1, 2, 3, and 4 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                                   4
Access Controls in the Enterprise Data Warehouse                            IS-AR-09-004




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, Acting
Director, Information Systems, or me at (703) 248-2100.

   E-Signed by Tammy Whitcomb
 VERIFY authenticity with ApproveIt




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Ross Philo
    Harold E. Stark
    John T. Edgar
    Greg G. Wallace
    Jerry McClure
    Katherine S. Banks




                                                   5
Access Controls in the Enterprise Data Warehouse                                                  IS-AR-09-004



                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

A data warehouse is a collection of data from many sources, stored in a single place for
reporting and analysis. A data mart is a repository of data gathered from operational
data and other sources that is designed to serve a community of knowledge workers. In
general, a data warehouse tends to be a strategic, but somewhat unfinished, concept; a
data mart tends to be tactical and aimed at meeting an immediate need.

The Postal Service has traditionally stored data in older systems (called legacy
systems) that are by nature stove-piped, or self-contained; therefore, these systems are
inaccessible for use with other data or by other business organizations. Because of
overlapping needs, various systems often contain the same information, which may or
may not produce the same reporting results from system to system. The EDW is a
collection of data from many sources that is stored in a single place for reporting and
analysis. It provides a single repository for managing all of the Postal Service’s data
assets for a wide variety of users. The data can be divided in various ways within and
across functions for deeper analysis, which can lead to additional revenue, reduced
costs, and improved business practices. Several Postal Service organizations have
data in EDW, including, but not limited to, Retail, Supply Chain Management, Finance,
Network Operations, and Facilities. The primary reporting tool is a web-based tool from
MicroStrategy, Inc., which offers greater functionality than is possible with Postal
Service systems and reporting tools.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine if access controls were adequate to prevent
inappropriate access to sensitive information in the EDW. To accomplish our objective,
we reviewed documentation, policies, and procedures and interviewed key officials
within the Business Data Management group in Raleigh, NC; Information Technology in
Eagan, MN; and Corporate Information Security in Washington, DC. In addition, we
reviewed the Enterprise Information Repository to determine which applications feeding
into EDW were sensitive. We also obtained a list of current nonstandard users of EDW
who are contractors. We obtained and reviewed7 contractors’ PS Forms 1357 to
determine, based on the contract expiration date, whether the justification for access
was valid, and to identify contractors’ rights and access they had within EDW. We
compared contractors’ last login dates in EDW with contract expiration dates to
determine whether contractors were still accessing information within EDW after their
contract expired. In addition, we contacted a selection of nonstandard users of EDW
whose employee status was missing from our data to determine whether they were
Postal Service employees or contractors.


7
  We reviewed 107 of a total of 112 (96 percent) contractors who had nonstandard access to EDW. We were unable
to locate five of these files.



                                                       6
Access Controls in the Enterprise Data Warehouse                                 IS-AR-09-004



We worked with Postal Service officials to develop a switch user test, which meant
finding an existing script that a nonstandard user uses and editing it so a different user
could accomplish the same task. In addition, we interviewed Postal Service officials
who create and review scripting logs of the EDW, and we reviewed policy for scripting
logs. We also ran a test to query the EDW logs to verify that the required logs were
being created. To verify the existence of two required logs deemed too sensitive to
create views, we observed nonstandard users with administrative rights gaining direct
access to these logs.

We conducted this performance audit from June 2008 through February 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on January 14, 2009, and
included their comments where appropriate. We determined that the computer-
generated data used to support our findings was sufficiently reliable for the purposes of
this audit. We validated this information by conducting interviews and reviewing
hardcopy documentation (PS Forms 1357) that supported data extracted from EDW.

PRIOR AUDIT COVERAGE

In our report titled, Update Processes for Active Directory and CA-ACF2 (Report
Number IS-AR-08-009, dated March 14, 2008), we recommended making
improvements to the approval process and tracking detailed employees in eAccess to
help strengthen security controls. Management has implemented the planned eAccess
enhancement that will ensure access reviews take place and has updated system
documentation for eAccess. However, management has not yet determined how to
integrate managers’ roles so the Human Capital Enterprise System can pass accurate
and timely employment change data to eAccess or the system for tracking employees
who are on detail.




                                                   7
Access Controls in the Enterprise Data Warehouse           IS-AR-09-004



                       APPENDIX B: MANAGEMENT’S COMMENTS




                                                   8
Access Controls in the Enterprise Data Warehouse       IS-AR-09-004




                                                   9
Access Controls in the Enterprise Data Warehouse        IS-AR-09-004




                                                   10
